No.

IN THE

JBuprenw CCmirt af tlje

JiHates

Arturo Beltran,
Petitioner,

v.
Craig Koenig, Warden,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
CERTIFICATE PURSUANT TO RULE 33
Pursuant to Rule 33.2, I hereby certify that this petition is 37 pages

long and therefore complies with the page limit set out in Rule 33 and was
prepared in 13-point Century Schoolbook font.

Respectfully submitted,

CUAUHTEMOC ORTEGA
Federal Public Defender

DATED: January 15, 2021

A

By^/
MARK R. DROZDOWSK1*
Deputy Federal Public Defender
Attorneys for Petitioner
*Counsel of Record

1

